Audit Report

Office of Justice Programs Grants
Administered by the Sault Ste. Marie Tribe of Chippewa Indians,
Sault Ste. Marie, Michigan

Report No. GR-50-05-006


February 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Sault Ste. Marie Tribe of Chippewa Indians (Tribe) in Sault Ste. Marie, Michigan.  The Tribe was awarded six grants, totaling $2,795,587 to fund the following initiatives:  1) provide training to law enforcement officers and tribal prosecutors; 2) provide services to victims of crime; 3) enhance tribal court case management; 4) assist tribal defendants in substance abuse cases; 5) build a juvenile correction facility, and 6) reduce, control, and prevent crime and delinquency both by and against tribal youth.

We tested the Tribes compliance with five essential grant conditions: budget management and control, grant expenditures, grant drawdowns, reporting, and local matching funds.  We determined that the Tribes control over expenditures was generally adequate to ensure that expenses were properly accounted for and that transactions were adequately supported.  However, $50,890 of costs charged to the grant were unsupported or unallowable.  Specific deficiencies included:

Failure to monitor grant expenditures by budget category or obtain approval to transfer funds between categories, resulting in unapproved fund transfers of $40,418 to cover deviations in excess of ten percent of the approved budgets. 

	Failure to maintain adequate records to support $8,399 of the grantees required matching contribution and $2,073 in grant expenditures.   

	Poor accounting review and reconciliation procedures resulted in the grantees drawing down funds in excess of expenditures.  Part of the excess drawdown was caused by the grantee requesting reimbursement twice for the same expenditures.  

	Failure to file required reports in a timely manner.  At least one-third of the Financial Status Reports were filed late and one-half of the progress reports were filed late or not at all.  

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.  We discussed the results of our audit with Tribal Officials and have included their comments in the report, as applicable.  In addition, we provided the grantee and OJP with a draft of our audit report and included their responses in the final report.